                   SEMIANNUAL
                       REPORT




OFFICE OF INSPECTOR GENERAL
         ACTIVITIES
                and
          CPB REPORT




   October 1, 2013 — March 31, 2014
     The Inspector General Act of 1978, as amended, reporting requirements are listed in the following
     chart, along with a page reference where we provide more detailed information.


                         Index of IG Act Reporting Requirements
           IG Act
        Reference                              OIG Reporting Requirements                            Page
      Section 4(a)(2)    Review of Legislation and Regulations                                        NA
      Section 5(a)(1)    Significant Problems, Abuses, and Deficiencies                               2-4
      Section 5(a)(2)    Recommendations With Respect to Significant Problems, Abuses, and
                         Deficiencies                                                                2-4
      Section 5(a)(3)    Prior Significant Recommendations Not Yet Completed                         NA
      Section 5(a)(4)    Matters Referred to Prosecutive Authorities                                 NA
      Section 5(a)(5)    Summary of Instances Where Information Was Refused or Not Provided          NA
      Section 5(a)(6)    List of Audit and Inspection Reports Issued                                  2
      Section 5(a)(7)    Summary of Each Significant Report                                          2-4
      Section 5(a)(8)b   Statistical Table Showing the Number of Audit Reports and Dollar Value of
                         Questioned Costs                                                             2
      Section 5(a)(9)    Statistical Table Showing the Number of Audit Reports and Dollar Value of
                         Recommendations that Funds Be Put To Better Use                              2
      Section 5(a)(10)   Summary of Audit Reports Issued Before the Start of the Reporting Period
                         for Which No Management Decision Has Been Made by the End of the
                         Reporting Period                                                            NA
      Section 5(a)(11)   Description and Explanation of Reasons for any Significant Revised Deci-
                         sions by Management During the Reporting Period                             NA
      Section 5(a)(12)   Information Concerning Significant Decisions by Management With
                         Which the Inspector General is in Disagreement                              NA
      Section 5(a)(14)   Information Regarding Peer Reviews Involving the Office of Inspector
                         General                                                                      4
      Section 5 Notes    Disclosure of Government Contractor Audit Findings                          NA
                                        CPB Management Reporting Requirements
      Section 5(b)(2)    Statistical Table Showing the Total Number of Audit Reports and Results
                         From Disallowed Costs                                                        8
      Section 5(b)(3)    Statistical Table Showing the Total Number of Audit Reports and Results
                         From Recommendations that Funds Be Put To Better Use Agreed to in a
                         Management Decision                                                          8
      Section 5(b)(4)    Summary of Audit Reports Where Final Action Has Not Been Completed
                         Within One Year of a Management Decision                                    9-10




b                                                                   OCTOBER 1, 2013 — MARCH 31, 2014
                                 FOREWORD
  Congress created the Corporation for Public Broadcasting (CPB) in 1967 to promote
  public media and help keep it free from government interference. CPB, a private
  nonprofit corporation, is the largest source of federal funding for more than 1,400
  public television and radio stations. CPB also funds research, technology, and di-
  verse and innovative program development for public radio, television, and related
  online services. It is governed by a nine-member Board of Directors appointed by the
  President and confirmed by the Senate.

  CPB receives nearly all of its funding from Congress. To provide stability for plan-
  ning long-term programs and projects, Congress appropriates funds two years before
  the fiscal year (FY) they are to be spent. For FY14, CPB received $445 million in
  Congressional appropriations, 95 percent of which must be awarded in grants and
  contracts in support of public media, and a $12.7 million Ready To Learn grant from
  the U.S. Department of Education.

  Congress created CPB’s Office of Inspector General (OIG) in 1988 to promote the ef-
  ficiency, effectiveness, and integrity of CPB by conducting audits, investigations, and
  other evaluations of CPB initiatives and operations. As an independent component
  of CPB, OIG reports to the CPB Board of Directors through its Audit and Finance
  Committee.

  Congress also required that the IG and the head of the CPB each report semiannually
  about OIG operations and activities. Because CPB is a small organization, we have
  created this joint report. The first section reports OIG’s activities and the second sec-
  tion is CPB’s report.




Semiannual Reporti
                                     TABLE OF CONTENTS

      Foreword . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


      Office of Inspector General Activities  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


      	         Message from the Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . 1


      	         Audits and Assistance Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


      	         Investigative Activities  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


      	         Congressional Matters . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


      CPB Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


      	Message from the Chief Financial Officer
          and Treasurer . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


      	         Recovering Disallowed Costs and Funds Put to Better Use . . . . . . . . 8


      	Corrective Actions Not Completed Within
          One Year of a Management Decision . . . . . . . . . . . . . . . . . . . . . . . 9


      	Significant Unimplemented Administrative
           Corrective Actions as of March 31, 2014 . . . . . . . . . . . . . . . . . . .  10




ii                                                                            OCTOBER 1, 2013 — MARCH 31, 2014
 OFFICE OF INSPECTOR GENERAL ACTIVITIES

 Message from the Inspector General

 March 31, 2014


 I am pleased to submit this Semiannual Report to Congress about our activities during the
 period October 1, 2013 to March 31, 2014. We issued three audits, as planned in our fiscal
 year 2014 annual plan, two of large public television/radio stations and one of a grant to
 update the public radio satellite interconnection system. These three audits addressed over
 $65 million in Corporation for Public Broadcasting (CPB) grant funds.


 This period we again found issues related to the indirect costs that a grantee charged to CPB
 grants. We raised concerns about indirect costs to CPB in earlier audits, and it subsequently
 issued an indirect costs policy. We were pleased to have an opportunity to comment on
 CPB’s proposed policy, and we will continue to work with CPB to clarify its indirect costs
 guidance. It is important that grantees’ indirect costs be fairly allocated to CPB grants and
 that CPB grantees fully understand the proper treatment of these costs.


 As called for in our agreement with CPB’s Board of Directors, we also reviewed the work of
 the independent public accountant that audited CPB’s fiscal year 2013 financial statement.
 We found that the work of the accountant was in accordance with acceptable standards.


 With regard to complaints that we received through our hotline and other avenues, we
 closed three pending complaints and 30 of the 39 new complaints received during the
 period. We opened no new investigations.


 The OIG is fully engaged in supporting public media by promoting accountability in CPB
 initiatives and operations. We look forward to continuing to work with Congress and the
 CPB Board and management in this important effort.




 Mary Mitchelson
 Inspector General




Semiannual Report1
                            Audit and Assistance Activities
     This table identifies the reports we issued this reporting period with related monetary findings
     and recommendations for corrective actions. You can access these reports on our website at
     http://www.cpb.org/oig/reports/

                Reports Issued for the Period Ending March 31, 2014
                                                                                                     Number of
      Report Number/Date                                   Questioned   Unsupported   Funds Put To
                                   Report Title                                                      Recommen­
             Issued                                          Costs         Costs       Better Use
                                                                                                       dations

     Audits:

                           Examination of Community
                           Service and Other Selected
         ASJ1306-1401      Grants Awarded to Oregon
                                                                  $0            $0              $0       0
        March 10, 2014     Public Broadcasting, Port-
                           land, ­Oregon, for the Period
                           July 1, 2011 – June 30, 2013

                           Audit of Selected Grants
        ASR1305-1402       Awarded to the National
                           Public Radio, Washington,          $99,760       $99,760             $0       4
        March 24, 2014     DC, for the Period April 28,
                           2008 – September 30, 2013

                           Examination of Selected
                           Grants Awarded to New York
        ASR1307-1403       Public Radio, WNYC-FM,
                                                              $96,941       $96,941             $0       3
        March 26, 2014     New York, New York, for the
                           Period September 15, 2007 –
                           November 30, 2012


     Examination of Selected Grants                                budget for “The Takeaway” radio pro-
     Awarded to New York Public Radio,                             gram. Our audit found that NYPR re-
     WNYC-FM, New York, New York for                               ported questionable indirect costs and
     the Period September 15, 2007 – No­                           did not report all the project costs for
     vember 30, 2012, Report No. ASR1307-                          these grants as required by the grant
     1403 (issued March 26, 2014)                                  agreements.

       New York Public Radio (NYPR) oper-                       The objectives of this examination were to
       ates three radio stations in New York                    examine NYPR management’s assertions of
       City and four stations in New Jersey.                    compliance with grant agreement terms and
       We audited two grants awarded to                         conditions for grant spending and reporting
       NYPR. One grant funded $970,000                          total project costs.
       of a $5 million Major Market project
       that included constructing a new “Per-                   Our examination found that NYPR:
       formance Space.” The second grant
       funded $1.2 million of the $4.3 million                  •	 reported questionable indirect costs totaling

2                                                                         OCTOBER 1, 2013 — MARCH 31, 2014
 $854,699, resulting in questioned CPB costs           found that NPR complied with grant
 of $96,941; and                                       requirements except it reported a du-
                                                       plicate accounting journal entry and it
•	 did not report all project costs as required by     did not make project financial reports
   the grant agreements.                               available to the public.

We recommended that CPB management re-      The objectives of our audit were to examine
quire NYPR to repay questioned grant funds  the PRSS financial grant reports as of Sep-
and file corrected Final Financial Reports for
                                            tember 30, 2013, to determine whether: 1) fi-
the “WNYC Major Market Service Exten-       nancial reports fairly present CPB grant reve-
sion” Fiscal Years (FY) 2008-2011 and “The  nues and expenditures; 2) costs were incurred
Takeaway” FY 2012 projects.                 in accordance with grant requirements; and 3)
                                            NPR complied with applicable provisions of
NYPR officials did not agree with our find-
                                            the Communications Act (Act).
ings and recommendations. We did not
change them based upon NYPR’s response to
                                            Based upon our audit we found that NPR:
the draft report.

                                                     •	 claimed duplicate payroll expenses of $99,760
CPB’s management decision resolving our rec-
                                                        because of an error in recording payroll ad-
ommendations is due by September 26, 2014.
                                                        justments; and
Audit of Selected Grants Awarded to
                                     •	 did not fully comply with open financial re-
National Public Radio, Inc., Wash­
                                        cords requirements of the Act.
ington, DC, for the Period April 28,
2008 - September 30, 2013, Report
                                     We recommended that NPR:
No. ASR1305-1402 (issued March 24,
2014)
                                                     •	 file a corrected and certified project cost re-
                                                        port increasing the available funds remaining
  National Public Radio (NPR) is the
                                                        to apply to future project costs;
  home of the Public Radio Satellite Sys-
  tem (PRSS). PRSS distributes public
                                                     •	 submit evidence of the journal entry adjust-
  radio programming and related digital
  content to more than 400 public radio                 ment to the PRSS project account correcting
  stations and hundreds of additional                   the $99,760 overcharge;
  stations that receive programming
  sent over satellite through local con-             •	 comply with the Act by making the financial
  nections with downlink stations. This                 reports it submits to CPB for the PRSS Up-
  audit covered the $72.9 million grant                 grade and Network Operations Center con-
  awarded to NPR to replace the PRSS                    struction grants available to the public; and
  and another $5 million to fund the
  PRSS share of the build out of the new             •	 develop procedures explaining how financial
  NPR headquarters building. Our audit                  reports can be obtained by the public.

Semiannual Report3
     NPR agreed with our findings and recom-                ly accounted for and reported on CPB
     mendations and initiated corrective action to          grant activities and complied with grant
     increase the project account and submit evi-           requirements and those of the Act.
     dence that the $99,760 overcharge was cor-
     rected. NPR also agreed to make financial
                                             The objectives of the audit were to examine
     reports it submitted to CPB available to the
                                             OPB’s certifications of compliance with CPB
     public. NPR’s proposed actions and proce-
                                             grant terms to: a) claim Non-Federal Finan-
     dures meet the intent of our recommendations
                                             cial Support (NFFS) on its Annual Financial
                                             Reports (AFR) in accordance with CPB Fi-
     and should correct the issues we reported.
                                             nancial Reporting Guidelines; b) expend CSG
     CPB’s management decision resolving our and other funds in accordance with grant
     recommendations is due by September 26, agreement requirements; and c) comply with
     2014.                                   the Certification of Eligibility requirements
                                             and the statutory provisions of the Act.
     Examination of Community Service
     Grants Awarded to Oregon Public Our examination found that OPB:
     Broadcasting, Portland, Oregon, for
     the Period July 1, 2011 - June 30, 2013, •	 reported NFFS in accordance with CPB’s Fi-
     Audit Report No. ASJ1306-1401 (is­          nancial Reporting Guidelines;
     sued March 10, 2014)
                                                         •	 expended and reported CPB funds in accor-
       Oregon Public Broadcasting (OPB) is                  dance with grant agreement requirements;
       the primary television and radio public              and
       broadcasting network for most of Or-
       egon, as well as southern Washington.             •	 complied with the Certification of Eligibility
       OPB is a major producer of television                requirements and the statutory provisions of
       programming for national broadcast                   the Communications Act.
       on PBS. During our audit period OPB
       received over $6 million from CPB                 Based on our testing, we had no findings or
       under the Community Service Grant                 recommendations, and OPB elected not to re-
       (CSG) program and other grant proj-               spond to our draft report. No management
       ects. Our audit found that OPB proper-            decision is required.



                         Additional Reporting Requirements
     Peer Review Results

     OIG did not conduct nor receive a peer review this reporting period, and there are no outstanding rec-
     ommendations from any prior peer review of OIG. Further, there are no outstanding unimplemented
     recommendations from a peer review that OIG previously conducted. The last peer review of OIG was
     conducted by the Library of Congress through the period ending March 31, 2013.


4                                                                   OCTOBER 1, 2013 — MARCH 31, 2014
                          Resolution of Recommendations
The following table summarizes the resolution activities for all audit and assistance reports issued
by our office. This table includes reports that contain monetary and non-monetary findings with
related recommendations.


                                Reports Requiring Resolution

                                                                        Total
                                         Number
                                           of       Questioned      Unsupported      Funds Put to
               Description               Reports      Costs            Costs          Better Use

    Reports for which no
    management decision had been
    made by the start of the reporting
    period.                                4           $689,960         $142,633        $141,136

    Reports issued during the
    reporting period.                      3           $196,701         $196,701               $0

        Subtotals1                         7           $886,661         $339,334        $141,136

    Reports for which a management
    decision had been made during
    the reporting period:                  4

     • Dollar value of
        recommendations agreed to
        by management                                  $168,491         $116,629        $141,136

     • Dollar value of
        recommendations not agreed
        to by management                               $521,461          $26,004               $0

    Reports with no management
    decision at the end of the
    reporting period.                      2           $196,701         $196,701               $0


1
 One report issued during the period had no findings and recommendations. As a result, only two
reports require a management decision as of March 31, 2014.




Semiannual Report5
                                  Investigative Activities
     The IG Act provides for OIG to receive and investigate complaints or allegations involving poten-
     tial violations of law, rules, or regulations or of mismanagement, gross waste of funds, or abuse
     of authority. We receive allegations through a variety of means, including our hotline. We review
     all allegations to determine whether the complaint should be the subject of an audit, evaluation, or
     investigation or referred for action by CPB.

                            Allegations and Hotline Complaints
     In the previous semiannual report, we reported that we had three open complaints at the end of
     the reporting period. We closed all three this period, as well as 30 of the 39 new complaints we
     received. We did not open any new investigations.


                                  Congressional Matters
     In March 2010, the ranking members of the Senate Committees on Finance, Homeland Security and
     Governmental Affairs, and the Permanent Subcommittee on Investigations, Senators Charles Grass-
     ley and Tom Coburn, requested that our office send biannual reports on all closed investigations,
     evaluations, and audits conducted by our office that were not disclosed to the public. In December
     2013, we sent a report for the period April 1, 2013 through September 30, 2013.




6                                                                 OCTOBER 1, 2013 — MARCH 31, 2014
                                CPB REPORT

 Message from Chief Financial Officer and Treasurer

 March 31, 2014

 CPB and OIG staffs continue to work cooperatively to discuss and resolve report find-
 ings and recommendations. Generally, corrective actions have been completed or are
 proceeding according to agreed-upon schedules. Some resolutions have taken longer
 than desired and recent modifications in internal procedures are being implemented to
 improve the timeliness of CPB responses.

 With our commitment to continuous improvement, enhancements to CPB internal con-
 trols and processes and procedures are always a priority. In this regard, the CPB staff and
 OIG are working together with our grantees to strengthen procedures and controls over
 station grants, contracts, and CPB assets.




 William P. Tayman, Jr.
 Chief Financial Officer and Treasurer




Semiannual Report7
                         Recovering Disallowed Costs and
                             Funds Put to Better Use
     During this reporting period CPB management issued four management decisions, three of them
     contained findings with questioned costs. Further details concerning the status of on-going re-
     covery efforts are discussed under the section titled Corrective Action Not Completed Within One
     Year of a Management Decision, on page 9.


              Reports with Disallowed Costs or Funds Put to Better Use
                                                 Number
                                                   of       Dollar Value of    Dollar Value Funds
                     Description                 Reports   Disallowed Costs     Put to Better Use

         Reports with management decisions
         for which final action had not been
         completed by the start of the report-
         ing period.                                8              $475,381            $1,300,538

         Reports for which management
         decisions were made during the
         reporting period.                          4              $168,491              $141,136

         Subtotal                                  12              $643,872            $1,441,674

         Reports for which final action was
         taken during the reporting period.2        2

         • D
            ollar value of disallowed costs
           that have been recovered through
           collection or offset.                                   $201,259              $601,454

         • D
            ollar value of disallowed costs
           written off as uncollectible.                                 $0                     $0

         Reports for which final actions were
         not completed by the end of the
         reporting period.                         10              $442,613               $840,220


     2
       Monetary recoveries were made on seven reports during this reporting period. Final monetary
     recoveries were made on two reports.


8                                                               OCTOBER 1, 2013 — MARCH 31, 2014
           Corrective Actions Not Completed Within
             One Year of a Management Decision
At the end of the reporting period there were four reports with monetary corrective actions that had
not been completed within one year of the management decision date. Additionally, there is one
other report with significant administrative corrective actions that have not been completed within
one year of the management decision date. CPB officials have established a completion date to
implement administrative corrective actions.
Monetary collection actions are in process in accordance with CPB’s approved grant offset sched-
ule for two audits and collection decisions are pending on two others.

    On-Going Monetary Collection Actions as of September 30, 2013
                                                                                  Fiscal Year
                                                Date            Date           Corrective Action
   Report No.          Report Title            Issued          Resolved        to be Completed

 ASJ1102-1201      Audit of CPB            Dec. 12, 2011      July 9, 2012        FY 2017 (1)
                   Grants Awarded to
                   WQED Multimedia

 ESR1107-1204      Examination of          March 20, 2012 March 22, 2013          FY 2016 (2)
                   CPB Grant Funds
                   Awarded to Cesar
                   Chavez Foundation
                   KUFW-FM

 APR1203-1206 Examination                 August 20, 2012 Feb. 28, 2013       Repayment schedule
              of CPB Grant                                                      not established
              Awarded to Pundit
              Productions, Inc.

 ASR1202-1208 Audit of CPB Grants          Sept. 21, 2012 March 28, 2012 Repayment schedule
              Awarded to Pacifica                                          not established
              Foundation Radio
              Stations KPFA,
              KPFK, KPFT,
              WBAI, and WPFW

(1)	CPB began recovering $759,332 in FY 2013. It will deduct $151,867 from WQED’s annual
     CSG for five years.
(2)	CPB began recovering $387,696 in FY 2014. It will deduct $129,232 from KUFW’s annual
     CSG for three years.


Semiannual Report9
      Significant Unimplemented Administrative Corrective
                   Actions as of March 31, 2014
                                                                                      Fiscal Year
                                                                                  Corrective Action to
       Report No.        Report Title         Date Issued       Date Resolved       be Completed
      ECJ905-1105 Station Survey    March 31, 2011 August 30, 2011                       FY 2014
                  Compliance with
                  Accounting & Com-
                  munications Act
                  Requirements




                  Auditing Requirements with the Communications Act
      Our survey report recommended expanding the independent public accountant’s attestation testing to
      verify compliance with the Communications Act requirements. To accomplish this CPB, is updating
      the financial reporting guidelines and developing a communications plan to notify all grantees of the
      new requirements. CPB expects these new procedures will be implemented by October 2014.




10                                                                  OCTOBER 1, 2013 — MARCH 31, 2014
                                CONTACT CPB/OIG
If you have information about fraud, waste, or abuse involving CPB funds, initiatives, or operations,
please call, fax, write, or e-mail the Office of Inspector General or file a complaint through our
website. Your report may be made anonymously or in confidence.


                       Call:	    Inspector General Hotline, 202-879-9728 or 800-599-2170


                       Fax:	     202-879-9699


                       Email: 	oigemail@cpb.org


                       Write:	   Inspector General Hotline
                       	         401 Ninth Street, NW
                       	         Washington, DC 20004-2129


                       Website: 	www.cpb.org/oig/contact.php
      401 Ninth Street, NW
      Washington, DC 20004
      (202) 879-9600
      www.cpb.org/oig
12                          OCTOBER 1, 2013 — MARCH 31, 2014
